United States Department of Agriculture
Office of Inspector General




Effectiveness of FAS' Recent Efforts to
Implement Measurable Strategies Aligned
to the Department's Trade Promotion and
Policy Goals




                                          Audit Report 50601-0001-22
                                          March 2013
                                       Effectiveness of FAS’ Recent Efforts to Implement
                                       Measurable Strategies Aligned to the Department’s
                                               Trade Promotion and Policy Goals

What Were OIG’s                                       Audit Report 50601-0001-22
Objectives
To determine if FAS has              Audit Report 50601-0001-22Audit Report 60601-0001-
developed and implemented
                                                             23
measurable strategies and
actions that are effectively
aligned with the Department’s
strategic goals related to trade   OIG evaluated FAS efforts to develop and
promotion and trade policy.        implement measurable strategies and
What OIG Reviewed                  actions that are effectively aligned with the
                                   USDA’s overall goals for trade policy and
We examined FAS’ strategic
and tactical plans for market      promotion.
access and trade promotion
activities for fiscal years 2010
through 2016. Specifically,        What OIG Found
we reviewed how effectively
FAS’ strategic goals and           The Government Performance and Results Act requires each
objectives align with USDA’s       executive agency to create a strategic plan with outcome-related goals
goals for international trade,     and objectives, and the Government Accountability Office
and how FAS measures its           recommends that agencies establish quantifiable performance
progress.                          measures in order to gauge progress. Although the Foreign
                                   Agricultural Service (FAS) recently updated its Strategic Plan to
What OIG Recommends                include measurable goals and objectives, these goals and objectives
                                   (which measure the dollar value of exports) do not present the whole
FAS should refine its              picture of how FAS’ actions are affecting the global market for
performance measures to            American agricultural goods. FAS’ measures are not outcome-based
contextualize changes in U.S.      and do not show how the United States is performing in a given
agricultural exports as part of    market compared to its competitors. OIG acknowledges that
U.S. market share in the global    developing outcome-based performance measures for FAS’ trade
market place. FAS should           efforts is difficult, but we maintain that a change in U.S. market share
also incorporate clear,            is an outcome-based measure that would be of great use to
outcome-based performance          policymakers.
measures into the 2013 CSSs,
work with the Department to        Additionally, FAS has not updated its Country Strategy Statements
update the GMS to align with       (CSS), USDA’s Global Market Strategy (GMS), or its corresponding
FAS and USDA strategic             performance measures in the Department's Performance and
goals, and update the              Accountability Report (PAR) to align with the goals and objectives
performance measures related       contained in the new Strategic Plan. By working with the Department
to trade policy and trade          to improve measures that are reported in the PAR, FAS can increase
promotion in Departmental          transparency in USDA reporting and show how FAS, in reaching its
planning and reporting             goals, is contributing to USDA’s overarching goal of increasing
documents.                         prosperity in rural communities. FAS agreed with all
                                   recommendations. We accepted management decision on four of the
                                   five recommendations.
                            United States Department of Agriculture
                                    Office of Inspector General
                                     Washington, D.C. 20250


DATE:           March 28, 2013

AUDIT
NUMBER:         50601-0001-22

TO:             Suzanne Heinen
                Administrator
                Foreign Agricultural Service

ATTN:           Kim Reid
                Director
                Compliance, Security and Emergency Planning Division

FROM:           Gil H. Harden
                Assistant Inspector General for Audit

SUBJECT:        Effectiveness of the Foreign Agricultural Service’s Recent Efforts to Implement
                Measurable Strategies Aligned to the Department’s Trade Promotion and Policy
                Goals


This report presents the results of the subject audit. Your written response to the official draft, dated
March 22, 2013, is included in its entirety at the end of this report. Excerpts from your response and
the Office of Inspector General’s (OIG) position are incorporated into the relevant Finding and
Recommendation sections of the report. Based on your written response, we are able to accept
management decision on Recommendations 1, 3, 4, and 5. However, we are unable to accept
management decision on Recommendation 2. Documentation or action needed to reach management
decision for this recommendation is described under the relevant OIG Position section.

Please follow your internal agency procedures in forwarding final action correspondence to the
Office of the Chief Financial Officer. In accordance with Departmental Regulation 1720-1, please
furnish a reply within 60 days describing the corrective actions taken or planned, and timeframes for
implementing the recommendation for which management decision has not been reached. Please
note that the regulation requires management decision to be reached on all recommendations within
6 months from report issuance, and final action needs to be taken within 1 year of each management
decision to prevent being listed in the Department’s annual Agency Financial Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Background and Objectives ....................................................................................1
USDA's and FAS' Strategic Framework ...............................................................1
Section 1: Goals and Performance Measures .......................................................4
   Finding 1: FAS Can Better Align Goals and Performance Measures Within
   Its Strategic Framework ......................................................................................4
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................8
         Recommendation 3 ........................................................................................9
         Recommendation 4 ......................................................................................10
         Recommendation 5 ......................................................................................10
Scope and Methodology .........................................................................................11
Abbreviations .........................................................................................................13
Agency’s Response .................................................................................................15
Background and Objectives

Background
The Foreign Agricultural Service's (FAS) mission is to enhance export opportunities and to serve
as the principal coordinator for international activities within the Department of Agriculture
(USDA).1 The value of U.S. agricultural exports has grown from $96.3 billion in fiscal year
(FY) 2009 to more than $135.7 billion in FY 2012. In addition to its Washington, D.C. staff,
FAS maintains a network of 98 offices covering 163 countries around the world. FAS works
with other USDA agencies, the Office of the U.S. Trade Representative, and other entities to
negotiate and monitor new trade agreements and enforce existing trade agreements.

FAS helps U.S. food and agricultural exporters take full advantage of market opportunities
through trade promotion and trade policy. Trade promotion refers to activities that provide
exporters with intelligence, credit financing, and assistance in their efforts to raise awareness and
approval of their products overseas. FAS’ promotion activities include a partnership with
approximately 75 agricultural industry groups to develop and maintain markets and export credit
guarantee programs, which encourage foreign buyers to purchase U.S. agricultural goods. FAS’
largest trade promotion program is the Market Access Program. The purpose of the program is
to create economic growth in rural America and the overall U.S. economy by funding consumer
promotions, market research, and technical assistance. FAS received $58.5 million in
appropriated funds to administer trade promotion activities in FY 2012.

While trade promotion is targeted at non-government entities, trade policy seeks to expand
exports by removing trade barriers imposed by other governments and international
organizations. In addition to removing barriers, the goal of FAS’ trade policy activities is to
enforce U.S. Government and exporters’ rights under existing trade agreements. FAS negotiates
and enforces market-expanding trade agreements, prevents and resolves foreign technical
barriers to trade and sanitary/phyto-sanitary measures, and pursues the development of
international systems that facilitate global trade. FAS received $77.5 million in appropriated
funds to administer trade policy activities in FY 2012.

USDA's and FAS' Strategic Framework

Concerned that the Federal Government was more focused on program activities and processes
than results, Congress passed the Government Performance and Results Act of 1993 (GPRA or
the Act).2 The Act required agencies to develop strategic plans with long-term, outcome-
oriented goals and objectives, annual goals linked to achieving the long-term goals, and annual
reports on the results achieved. In January 2011, Congress updated and refined the GPRA
framework to take advantage of the latest technologies and to produce more frequent, relevant
data for use by decision-makers.


1
  Although not discussed in this report, FAS also supports international economic development and capacity-
building and promotes sustainable development practices.
2
  Public Law 103-62.


                                                                        AUDIT REPORT 50601-0001-22            1
The GPRA Modernization Act3 requires the Department to establish new kinds of goals and to
report details of results more frequently. Strategic goals are what an organization aims to
achieve during the period covered by its Strategic Plan. For example, one of the strategic goals
in USDA’s Strategic Plan for FYs 2010-2015 is to assist rural communities to create prosperity
so they are self-sustaining, repopulating, and economically thriving.4 Priority goals, on the other
hand, are outcome-oriented and limited in number to ensure that there is ample Departmental
focus on achieving them within a 2-year timeframe. In accordance with the GPRA
Modernization Act, USDA published an addendum to its current strategic plan adding three
priority goals. An example of a priority goal for USDA is to expand exports to at least
$150 billion to assist rural communities to build and maintain prosperity through increased
agricultural exports.5 The USDA goals should then inform agency-specific goals and objectives,
such as FAS' objective to increase the effectiveness of FAS Market Development Programs and
Outreach Activities.6

At the outset of our review, we evaluated FAS’ Strategic Plan in place at that time, which
covered FYs 2010 through 2015. We found this plan did not contain any performance measures
or benchmarks by which FAS could assess its progress towards reaching its program goals. In
March 2012, FAS replaced that plan with its strategic plan for FYs 2012-2016. This new plan
contains one strategic goal: to increase U.S. food and agricultural exports to $175 billion by end-
year 2016, resulting in $89 billion of additional economic activity, 7 through market development
programs, trade shows, prevention/resolution of market access issues, trade capacity building,
and market-expanding trade agreements. This new goal aligns directly with USDA’s Priority
Goal 38 to expand agricultural exports to at least $150 billion by September 30, 2013.

FAS’ goal to increase agricultural exports from $108.7 billion in FY 2010 to $175 billion by
end-year 2016 is based on a projected increase through agricultural export growth and
international cooperation. FAS expects to achieve this goal through eight objectives aligned
under three core activity pillars: trade promotion, trade policy, and trade capacity building and
food security. Each pillar contains objectives that include performance measures to track
progress towards attaining each objective and the overarching goal. Each pillar outlined in the
Strategic Plan also contains a discussion on strategies and means, which describes how FAS will
operate in the international trade and food security arenas and defines the tools that its staff will
employ to achieve the agency’s objectives. For example, the Strategies and Means section of
Objective 1.1: Increase the effectiveness of FAS market development programs and outreach


3
  Public Law 111-352.
4
  USDA Strategic Goal 1.
5
  USDA Priority Goal 3.
6
  FAS Strategic Plan FY 2012-2016, Pillar I: Trade Promotion; Objective 1.1: Increase the effectiveness of FAS
Market Development Programs and Outreach Activities.
7
  Research performed by the USDA’s Economic Research Service indicates that each $1 billion of food and
agricultural exports results in an additional $1.34 billion in economic activity. The target $89 billion in additional
economic activity is calculated based on a $66.3 billion increase of agricultural exports from FY 2010 through 2016.
8
  The USDA Update Addendum contains three priority goals, only one of which, number 3, is related to trade. The
other two are (1) further improve the high payment accuracy of the Supplemental Nutrition Assistance Program, and
(2) further accelerate the protection of clean, abundant water resources by implementing high impact targeted
practices through Farm Services Agency, Forest Service, and Natural Resources Conservation Service programs on
4-million acres within critical and/or impaired watersheds.


2     AUDIT REPORT 50601-0001-22
activities includes increasing public awareness of export opportunities through education and
outreach efforts, including encouraging active participation of new exporters in foreign trade
shows.

To meet the GPRA requirements, an agency should cascade its goals and objectives throughout
the organization and should align performance measures to objectives. To support its strategic
planning process, FAS uses a hierarchical framework for international trade that is based on
multiple strategies and plans. A fundamental piece of FAS' framework is its Country Strategy
Statements (CSS), developed annually by Headquarters and overseas Offices of Agricultural
Affairs for approximately 60 countries. These CSSs provide information that is used to develop
the Trade Priority Action Plan (TAP), which identifies the highest priority countries with the
largest potential for increasing trade, as well as specific barriers that interfere with trade for each
country. The goals and objectives within the TAP and the CSS should outline what FAS plans to
do within a given fiscal year that would contribute to reaching those goals outlined in the FAS
Strategic Plan. As the Strategic Plan is updated every 5 years, measurable goals and milestones
within the TAP and the CSS would show the agency where it is meeting its objectives and where
efforts should be focused in the upcoming years to reach the agency goals over that 5-year
period.

The FAS Strategic Plan should integrate with the plans of other agencies with interests in
international trade, such as the Animal and Plant Health Inspection Service, the Agriculture
Research Service, and the Food Safety and Inspection Service, and inform USDA’s Global
Market Strategy (GMS). Outside of FAS' agency-specific strategies, the USDA GMS provides a
roadmap for expanding U.S. agricultural exports to promote improved collaboration among
USDA agencies and help those agencies make important decisions.9 FAS' overall progress in
meeting performance measures and annual milestones is reported in the Department’s Annual
Performance Plan, and also in its Performance and Accountability Report (PAR).

Objectives
This report focuses on whether FAS has developed and implemented measurable strategies and
actions that are effectively aligned with the Department’s strategic goals relating to trade
promotion and trade policy.




9
    The Global Market Strategy also promotes goals for improving global food security not discussed in this report.


                                                                           AUDIT REPORT 50601-0001-22                 3
Section 1: Goals and Performance Measures

Finding 1: FAS Can Better Align Goals and Performance Measures Within
Its Strategic Framework
Although FAS recently updated its Strategic Plan to include measurable goals and objectives,
these goals and objectives (which measure the dollar value of exports) do not present the whole
picture of how FAS’ actions are affecting the global market for American agricultural goods.
While FAS has measurable performance measures in place, those measures are based on raw
dollar values, and are therefore not outcome-based and do not show how the United States is
performing in a given market compared to its competitors. FAS officials have argued against
including measures that depict U.S. market share versus its competitors because there are too
many variables beyond their control that affect U.S. market share. They have also stated that by
linking a measure like increases in the dollar values of exports to the number of jobs created
domestically, they are in effect reporting an outcome-based performance measure. Although
OIG acknowledges that developing outcome-based performance measures for FAS’ trade efforts
is difficult, we maintain that a change in U.S. market share is an outcome-based measure that
would be of great use to policymakers. By updating all of the relevant strategic statements—
FAS’ Country Strategy Statements (CSS), the Trade Priority Action Plan (TAP), the
Department’s Global Market Strategy (GMS), and the corresponding performance measures that
are reported in the Department's Performance Accountability Report (PAR)—with such
outcome-based performance measures, FAS can better measure the effectiveness of its strategies
and activities. This, in turn, can help the agency to better focus its strategies during future
planning cycles to mitigate some of the macroeconomic factors influencing international trade,
and thereby provide the opportunity for the agency to obtain the best return on investment.

GPRA requires each executive agency to have a strategic plan with outcome-related goals and
objectives for major functions and operations. Agencies must describe how the goals and
objectives will be achieved, and describe how performance measures relate to the strategic plan.
In addition, the GPRA Modernization Act requires USDA to establish priority goals for all its
functions and report its results more frequently.

The Government Accountability Office (GAO) has reported that as leading organizations strive
to align their activities and resources to achieve mission-related goals, they also establish clear
hierarchies of performance goals and measures.10 Through these hierarchies, organizations link
the goals and performance measures for each organizational level to successive levels and,
ultimately, to the organization’s strategic goals. Clear, hierarchically-linked performance
measures create a straightforward roadmap illustrating how an employee's daily activities
contribute to attaining strategic goals.

In March 2012, FAS published a new Strategic Plan with a single strategic goal: increase exports
to $175 billion by end-year 2016, resulting in $89 billion of additional economic activity. The
new plan includes objectives, as well as baseline and target data for use in assessing progress.

10
  GAO/GGD-96-118; “Executive Guide – Effectively Implementing the Government Performance and Results
Act,” June 1996.


4    AUDIT REPORT 50601-0001-22
For example, one objective is to increase the effectiveness of FAS market development programs
and outreach activities. The new strategic plan includes the means by which FAS expects to
achieve this objective, along with four measures (with baselines and targets) as well as a return
on investment calculation that will enable it to gauge its success in this area. For example, one
of the measurements FAS will use to gauge success in this area is the increase in the value of
agricultural exports resulting from participation in foreign food and agricultural trade shows
from a baseline of $1.1 billion to $1.35 billion over 5 years. Using that and two other measures
listed for that objective,11 FAS calculates that it currently has a baseline rate of return of
$35/$1 invested and the target is to raise the return on investment to $40/$1 invested over the 5-
year period.

OIG acknowledges that this new plan is a positive step towards meeting the intent of GPRA and
the GPRA Modernization Act, but we maintain that FAS must further refine its performance
measures so that (1) they report outcomes beyond total dollars exported and (2) they do not
neglect to describe the United States’ agricultural market share compared to its competitors. As
with most statistics, the raw numbers (billions of dollars in trade) are helpful, but FAS can do a
better job of providing policymakers with a clearer understanding of the global market by
contextualizing these raw numbers within the overall market.

OIG and FAS have not agreed on this issue in the past. Previously, OIG reported that although
the dollar value of U.S. exports rose by 39 percent between 1990 and 2005, larger export gains
by foreign competitors had eroded the U.S.’ market share of global agricultural exports by
32 percent over the same period.12 OIG questioned whether FAS’ strategic trade approach
would be effective in addressing the Department’s legislative requirements. We made
recommendations based on the 1996 and 2002 Farm Bills, which required, in part, that FAS
prepare a long-range agricultural trade strategy including such goals as: identifying opportunities
for the growth of agricultural exports to overseas markets, increasing the value of U.S.
agricultural exports each year, and increasing the value of U.S. agricultural exports each year at a
faster rate than the rate of increase in the value of overall world export trade in agricultural
products (market share).

In its response to that report, FAS asserted that OIG had used questionable market share data and
had overstated a far more modest decline in U.S. market share. In subsequent correspondence,
FAS asserted that a decline in market share does not by itself imply any loss of U.S.
competitiveness and stated that the “experts in FAS recognized some time ago the inherent
contradiction between any pursuit of global free trade on the one side, and a maintenance of the
dominating world market share of agricultural exports that the United States enjoyed throughout
the Cold War era on the other.” FAS reasoned that rather than taking a bigger slice of the pie, it
is more beneficial for the nation to hold a slightly smaller piece of a much larger pie. OIG’s
position is that so long as the goal of increasing market share is a legislative requirement for the
Department, FAS should include it as one of the agency’s goals. In response to the
recommendations made in the prior report, FAS developed the draft FY 2010 GMS, which

11
   FAS also hopes to increase the number of companies participating in these activities from 2,009 to 2,140 over the
period, as well as to increase the percentage of cooperators rated at least moderately effective from 65 to 75 percent.
12
   Foreign Agricultural Service–Implementation of the Trade Title of the 2002 Farm Bill and the 2002 President’s
Management Agenda, (50601-0012-At, March 2007).


                                                                           AUDIT REPORT 50601-0001-22                5
includes performance measures related to overall market share. (See below for more discussion
on our review of the GMS.)

Recently, FAS officials have stated that using market share as a performance measure is not
feasible because market share is affected by too many variables beyond the agency’s control.
Much the same might be said of the dollar value of goods exported, as of course any currency is
subject to a wide range of macro-economic factors, such as inflation. We maintain that an
effective outcome-based performance measure might include the total dollar of goods exported
along with the U.S. share in that market. By pairing these two measures together, FAS might
provide policymakers with a more accurate illustration of how FAS’ efforts are affecting global
markets.

FAS officials have also stated that they consider their measurement of the total dollar of U.S.
agricultural goods exported to be an outcome-based performance measure because they have
linked each $1 billion of food and agricultural exports with an estimated 7,800 jobs and an
additional $1.34 billion in economic activity. FAS arrived at this linkage based on research
performed by the USDA’s Economic Research Service (ERS).13 OIG agrees that this linkage
does have the potential to become an excellent outcome-based performance measure, but FAS
would need to perform some validation to confirm that, in fact, the predicted number of jobs was
being created.

Once FAS has refined its performance measures to address these issues, the agency should then
align its CSSs, the TAP, and its related portions of Departmentwide planning documents to the
new Strategic Plan objectives.

Each year FAS staff assigned to foreign posts submit CSSs for countries in their areas of
responsibility.14 These connect long-term strategic issues, such as barriers to trade or promotion
goals, with current activities and goals. Each CSS contains information on the country's
agricultural economy and policy, long-term strategic goals (5- to 10-year horizons), and short-
term objectives that feed into the long-term goals. We reviewed a sample of 3 CSSs for both
2010 and 2011, and then a larger sample of 16 CSSs for 2012. We concluded that, since 2010,
FAS has made improvements to the design and information in the statements. However, further
enhancements are needed for the statements to align effectively with FAS agency objectives.

One of FAS’ objectives is to increase the effectiveness of market development programs and
outreach activities. FAS measures this, in part, through the value of agricultural exports
resulting from participation in foreign trade shows, with the target of increasing agricultural
exports by $250 million (about 23 percent) between FYs 2011 and 2016. In light of this overall
target, we asked FAS how it evaluates performance at the country and market levels. FAS
officials stated that they measure progress based on achievement of the "measurable, country-
specific" goals and objectives in the CSSs.



13
   ERS annually estimates agricultural trade multipliers. These estimates are derived from tables published by the
U.S. Department of Commerce, Bureau of Economic Analysis, and are adjusted annually to account for changes in
prices and labor productivity.
14
   For 2012, FAS required Country Strategy Statements from 50 countries/markets.


6     AUDIT REPORT 50601-0001-22
While we agree that the achievements should be measurable and country specific, our analysis of
2012 CSSs revealed few quantifiable objectives. Of the 78 long-term goals and 376 associated
short-term objectives contained in our sample of 2012 CSSs, we found that less than 5 percent of
the short-term objectives contained a quantifiable element that could be measured and tracked.
The majority of the 376 objectives involved qualitative statements, which results in a shortage of
actual measures to track and monitor progress. In addition, short-term objectives placed
emphasis on what FAS would like the target country to do, rather than what FAS itself can do.
Some examples include:

      ·   [Country] imports a more diverse range of U.S. agricultural products.
      ·   [Country’s] perception of U.S. food and agricultural products becomes more positive.
      ·   [Country’s] importers become aware of available USDA credit programs.

While each of these appears to result in a desirable outcome, they do not provide any indication
of how FAS will achieve these outcomes. According to the Act, a performance goal should be a
target level of performance expressed as a tangible, measurable objective against which actual
achievement can be compared. A more effective approach would be for FAS to assess the
actions it needs to take to achieve the results described in the measures and express the goal in a
way that reflects the actual achievement at the country level. For example, rather than stating
that the country’s perception of U.S. food and agriculture becomes more positive, the objective
could discuss how FAS will measure the country’s perception of U.S. food and agricultural
products and what FAS will compare the results of that measurement to in order to rate success.
We note that one CSS we reviewed did contain good examples of measurable goals and
objectives at the country level such as, “FAS-assisted United States participation in [country’s]
trade shows increases by 10 percent and expands to two new shows as compared to 2011.”

OIG recognizes that it may be difficult to establish performance measures for every goal and
objective within these CSSs. GAO states that performance measures should tell each
organizational level how well it is achieving its goals and the number of measures for each goal
should be limited to a vital few.15 Limiting measures to core program activities frees managers
from having excess data that could obscure, rather than clarify, performance issues.
Additionally, this focus helps to ensure that costs for data collection and analysis do not become
prohibitive. Accordingly, FAS could benefit from identifying a few key performance measures
in each country or market that are most significant to the overall agency goals, and then actively
tracking its success with these on a yearly basis.

We reached a similar conclusion during our review of the Department’s GMS. Although this
strategy is more general in nature than the CSSs, FAS can improve it by incorporating outcome-
based goals and related measures that link directly to those in its own, and the Department’s,
strategic plan. Currently, the GMS includes goals and subordinate objectives, but its
performance measures (including those related to overall U.S. market share) do not contain any
outcome measures, milestones, or targets that FAS could use to monitor progress. GAO has
issued guidance stating that successful performance measures should have a numerical goal;
otherwise, it may be impossible to determine whether performance is meeting expectations.
Since the GMS groups countries into categories, it is logical that the new goals and measures

15
     GAO/GGD/AIMD-10.1.18, p. 11


                                                               AUDIT REPORT 50601-0001-22         7
incorporated into the CSSs could be used to develop broader, yet related, goals and measures for
the GMS.

Ideally, outcomes contained in the CSSs would link to those in the FAS Strategic Plan, and from
there to the GMS, and then be reported in USDA’s PAR. However, since these planning
documents lack clearly linked outcome measures, the targets contained in the PAR and the
annual milestones contained in the Department’s Annual Performance Plan do not reflect the
breadth of FAS' work. Specifically, the FY 2011 PAR contained two measures related to
international trade, both of which capture the value of trade preserved through trade policy
efforts. Neither captures FAS’ efforts in the area of trade promotion. FAS told us that these two
measures have essentially remained unchanged since they were developed in the late 1990s when
GPRA was implemented. FAS agreed that it could improve measures to evaluate overall agency
effectiveness and achievements. Officials said they are working to adopt two new measures that
will focus on the outcomes of all FAS activities: (1) jobs supported and (2) economic activity
generated through agricultural exports.

Overall, we believe that if FAS establishes meaningful performance measures within the CSSs,
the TAP, and the GMS, these will lead to improved measures at the PAR level. Improved
measures would also help FAS to more effectively focus resources to help the Department
succeed in reaching its goal of increasing prosperity in rural communities.

Recommendation 1
Refine FAS’ strategic goal to contextualize changes in billions of dollars of U.S. agricultural
exports as part of U.S. market share in the global market place.

Agency Response
In its March 22, 2013 response, FAS agreed with OIG that there could be additional means to
more clearly depict the whole picture of how FAS actions are affecting the global market for
American agricultural goods, and that changes in US market share are an outcome-based
measure that could be of great use. FAS agreed to consult with the appropriate congressional
committees to determine a collection of measures that together provide a more accurate
illustration of how FAS efforts are affecting global markets. It agreed to incorporate the new
measures into agency planning sessions by October 1, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 2
Improve the linkage of billions of dollars of U.S. agricultural exports with jobs created by
validating the number of rural jobs created due to these exports.




8    AUDIT REPORT 50601-0001-22
Agency Response

In its March 22, 2013 response, FAS agreed with OIG that an annual rural impact analysis would
be beneficial for use in FAS strategic planning and USDA outreach activities. FAS stated that
the jobs and revenue generated from exports data currently reported is calculated by USDA’s
ERS. It agreed that upon report issuance, it will request that ERS supplement the generated
revenue and jobs data with an ongoing study to confirm the impact of agricultural income and
jobs broke down by rural versus urban economies.

OIG Position
We are pleased that FAS agrees with the need to improve the linkage between agricultural
exports with jobs created; however, we are unable to accept FAS’s management decision for this
recommendation. We are concerned that FAS’ singular reliance on ERS to conduct more studies
will not be effective. Additionally, we believe that it is unlikely that ERS in the near future will
have the needed resources to conduct additional studies on how to validate performance
measures. Therefore, we believe FAS should seek other alternatives to independently and
periodically validate their performance measures–so that the needed adjustments can be timely
made to its trade strategy. One approach offered would involve that FAS approach the Office of
the Chief Economist to seek its assistance in developing the data needed to independently
measure the economic benefits that the increased export trade has to the rural sector. This
approach would allow for dynamic data—data that can be periodically collected and used to
validate whether the agency is meeting its intended outcomes—that, in turn, would allow more
effective and timely strategic planning. Therefore, to reach management decision the agency
needs to go beyond just a request for an ERS impact study to include the pursuit of alternative
approaches to conducting periodic validation of performance measures.

Recommendation 3
Incorporate clear, outcome-based performance measures into the 2013 Country Strategy
Statements that align with the FAS agencywide goals and objectives.

Agency Response
FAS agreed with the recommendation and has indicated that its staff is currently reviewing the
draft 2013 CSS against a new set of guidelines which organizes and aligns all CSS objectives
with those in the FAS Strategic Plan. The agency believes it can incorporate clear, outcome-
based performance measures into the majority of the CSS objectives by June 30, 2013. Written
guidance that includes the recommended measures for the remaining CSS objectives will be
issued by March 30, 2014.

OIG Position
We accept management decision for this recommendation.




                                                               AUDIT REPORT 50601-0001-22         9
Recommendation 4
Update the Global Market Strategy to include clear, outcome-based goals and measures that
align with the FAS and USDA strategic goals.

Agency Response
FAS agreed with this recommendation. It stated that the completion of the newly aligned 2013
CSS objectives will support an update of the Global Market Strategy. FAS says it will introduce
the revised GMS into the Intra-Departmental Coordination Committee on International Affairs
process with a targeted completion date of September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 5
Coordinate with the Department to update the performance measures related to trade policy and
trade promotion in the PAR and Annual Performance Plan to better capture overall agency
effectiveness and achievements and include goals related to U.S. market share.

Agency Response
FAS agreed to coordinate with the Department to update the performance measures, including
through final action on Recommendations 1, 2, and 4. FAS agreed to aim for complete action no
later than September 30, 2013.

OIG Position
We accept management decision for this recommendation.




10     AUDIT REPORT 50601-0001-22
Scope and Methodology
Our review covered FAS’ strategic and tactical plans for market access and trade promotion
activities in FYs 2010 through 2016. Specifically, we reviewed how effectively FAS’ strategic
goals and objectives align with the Department’s goals for international trade, and how FAS
measures progress toward accomplishing its goals. Our fieldwork took place from
November 2011 through September 2012 at FAS’ Headquarters in Washington, DC.16

In order to achieve our objective, we reviewed and evaluated USDA’s and FAS’ strategic
planning documents that relate to international trade, including Strategic Plans, subordinate
plans, and selected Country Strategy Statements.17

We interviewed agency officials and reviewed GAO’s desirable elements of an effective strategy
in order to compare them to USDA and FAS strategies. To evaluate FAS’ plans and actions in a
Departmental context, we discussed FAS roles and actions with officials from other USDA
agencies that play a role in international trade, including: Animal and Plant Health Inspection
Service, Food Safety and Inspection Service, Agricultural Research Service, and Forest Service.
To accomplish our objectives, we:

     ·   Reviewed laws and FAS and Departmental regulations and procedures governing efforts
         to increase international trade.
     ·   Reviewed FAS’ Strategic Plans18 and the Department’s FY 2010-2015 Strategic Plan and
         Update Addendum. We also reviewed the USDA 2010 and 2011 Performance and
         Accountability Reports, the FY 2012 and FY 2013 Budget Summary and Annual
         Performance Plan, the current Global Market Strategy, and Trade Priority Action Plans
         for 2010-2011 and 2012-2013.
     ·   Interviewed FAS officials within the Office of Trade Programs, the Office of Agreements
         and Scientific Affairs, the Office of Global Analysis, the Office of Chief Operating
         Officer, and the Office of Country and Regional Affairs, including staff from the Europe,
         Asia, and Western Hemisphere divisions.
     ·   Interviewed representatives of the Intra-Departmental Coordination Committee for
         International Affairs.
     ·   Reviewed prior OIG and GAO documents that reported on efforts to increase U.S.
         exports.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


16
   Originally, this audit was evaluating FAS and USDA plans for and effectiveness in implementing the President’s
National Export Initiative, with fieldwork beginning in March 2011. However, in October 2011, our objective
changed to an examination of how FAS’ strategic plan for trade policy and promotion integrated with USDA’s goals
for international trade.
17
   We judgmentally selected three Country Strategy Statements for years 2010 and 2011. We selected our sample to
ensure coverage of all three branches within FAS’ Office of Country and Regional Affairs. We randomly selected a
sample of 16 Country Strategy Statements for 2012 using a random number generator to select numbered Country
Strategy Statements from the universe of 50 that FAS required for 2012.
18
   For FAS, we reviewed the prior (FY 2010-2015) and current (FY 2012-2016) Strategic Plans.


                                                                     AUDIT REPORT 50601-0001-22              11
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

During the course of our audit we did not verify information in any FAS or USDA electronic
information system, and make no representation regarding the adequacy of any agency computer
systems or the information generated from them.




12     AUDIT REPORT 50601-0001-22
Abbreviations
CSS ............................. Country Strategy Statements
ERS ............................. Economic Research Service
FAS ............................. Foreign Agricultural Service
FY ............................... Fiscal Year
GAO ............................ Government Accountability Office
GMS ............................ Global Market Strategy
GPRA .......................... Government Performance and Results Act of 1993
OIG ............................. Office of Inspector General
PAR ............................. Performance and Accountability Report
TAP ............................. Trade Priority Action Plan
USDA.......................... Department of Agriculture




                                                               AUDIT REPORT 50601-0001-22   13
14   AUDIT REPORT 50601-0001-22
Agency’s Response




               USDA’S
   FOREIGN AGRICULTURAL SERVICE'S
      RESPONSE TO AUDIT REPORT




                     AUDIT REPORT 50601-0001-22   15
                      USDA
                      Logo


United States                                                                                     March 22, 2013
Department of
Agriculture           TO:             Gil Harden
Farm and Foreign                      Assistant Inspector General for Audit
Agricultural                          Office of Inspector General
Services

Foreign
Agricultural          FROM:           Suzanne Heinen /s/
Service
                                      Administrator
1400 Independence
Ave, SW
Stop 1060             SUBJECT:        Response to OIG Draft Report -- “Effectiveness of Foreign Agricultural
Washington, DC
20250-1060                            Service’s Recent Efforts to Implement Measurable Strategies Aligned to
                                      Department’s Trade Promotion and Policy Goals to Enhance Agricultural
                                      Trade” (50601-0001-22)


               Thank you for providing the Foreign Agricultural Service (FAS) with the Office of Inspector
               General (OIG) draft “Effectiveness of Foreign Agricultural Service’s Recent Efforts to
               Implement Measurable Strategies Aligned to Department’s Trade Promotion and Policy Goals to
               Enhance Agricultural Trade.” The five OIG recommendations, and FAS’s responses to them, are
               provided as follows:

               Recommendation 1:

               Refine FAS’ strategic goal to contextualize changes in billions of dollars of U.S. agricultural
               exports as part of U.S. market share in the global market place.

               FAS Response:

               FAS agrees with OIG that there could be additional means to more clearly depict the whole
               picture of how FAS actions are affecting the global market for American agricultural goods, and
               that changes in U.S. market share are an outcome-based measure that could be of great use. FAS
               also recognizes OIG’s acknowledgment that market share has limitations, and appreciates OIG’s
               suggestion that an effective outcome-based performance measure might pair the total dollar of
               goods exported along with the U.S. share in any given market. Therefore, FAS will consult with
               the appropriate congressional committees to determine a collection of measures that together
               provide a more accurate illustration of how FAS efforts are affecting global markets. By
               October 1, 2013, FAS will incorporate the new measures into agency planning sessions as a
               means to better assess the effectiveness of FAS strategies and activities.




               Recommendation 2:
                                                   USDA is an Equal Opportunity Employer
                                                     2


Improve the linkage of billions of dollars of U.S. agricultural exports with jobs created by
validating the number of rural jobs created due to these exports.

FAS Response:

The linkage between revenue generated from agricultural exports and nationwide jobs is
calculated by USDA’s Economic Research Service (ERS) using procedures established and
approved by the inter-agency Trade Promotion Coordinating Committee for publication in the
annual National Export Strategy. FAS concurs with OIG on the desirability of a credible annual
rural impact analysis that can be incorporated into FAS strategic planning and USDA outreach
efforts. Upon issuance of the OIG final report, FAS will request that ERS supplement the
linkage data they provide with an ongoing study to confirm the impact of agricultural income
and jobs broken down by rural versus urban economies.

Recommendation 3:

Incorporate clear, outcome-based performance measures into the 2013 Country Strategy
Statements that align with the FAS agency-wide goals and objectives.

FAS Response:

FAS agrees with this recommendation. Headquarters staff currently is reviewing draft 2013
Country Strategy Statements (CSS) against a new set of guidelines which organizes and aligns
all CSS objectives with those in the FAS Strategic Plan. A limited set of objectives will be
identified as “Global” and either applicable for all FAS overseas offices (for example, trade
leads) or for categories of countries (for example, countries where free trade agreements are
being implemented). Other objectives will remain unique to the particular country. In adopting
OIG’s suggestion to focus on fewer, more measurable objectives, FAS believes that it can
incorporate clear, outcome-based performance measures into the majority of CSS objectives as
soon as June 30, 2013. The remaining outcomes, those at the individual country level that must
be addressed one at a time, will be incorporated prior to the 2014 CSS’s. Written guidance that
includes the recommended measures in every CSS for 2014 will be issued by March 30, 2014.




Recommendation 4:
                                                   3

Update the Global Market Strategy to include clear, outcome-based goals and measures that
align with the FAS and USDA strategic goals.

FAS Response:

FAS agrees with this recommendation. Completion of 2013 CSS’s that are more clearly aligned
with the FAS Strategic Plan will support an update of the current Global Market Strategy (GMS).
As previously discussed with OIG, the GMS will be modified primarily to reflect the two FAS
strategic pillars relating to marketing and trade, and to provide limited discussion of the third
pillar regarding capacity building. FAS will introduce the revised GMS into the Intra-
Departmental Coordination Committee on International Affairs process for targeted completion
by September 30, 2013.

Recommendation 5:

Coordinate with the Department to update the performance measures related to trade policy and
trade promotion in the PAR and Annual Performance Plan to better capture overall agency
effectiveness and achievements and include goals related to U.S. market share.

FAS Response:

FAS agrees with this recommendation. FAS will coordinate with the Department in the manner
of this recommendation, including through the final action on Recommendations 1, 2, and 4.
While this will be an ongoing effort, we will aim to complete actions specific to this report no
later than the September 30, 2013, target identified in our response to Recommendation 4.

If you have any questions or concerns regarding this memorandum, or if you need additional
information, please contact James Gartner, FAS’s Audit Liaison, on (202) 720-0517.
Informational copies of this report have been distributed to:

Administrator, Foreign Agricultural Service
 Attn: Agency Liaison Officer

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
 Attn: Director, Planning and Accountability Division
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
